HHS/OIG, Audit - "Medical Assistance Provided by the District of Columbia
to Hurricane Katrina Evacuees," (A-03-07-00202)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medical
Assistance Provided by the District of Columbia to Hurricane Katrina Evacuees,"
(A-03-07-00202)
February 21, 2008
Complete
Text of Report is available in PDF format (710 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The District generally claimed reimbursement for services
provided to Hurricane Katrina evacuees in accordance with its approved section
1115 demonstration project.  Of the $246,006 claimed, $201,106 was allowable.
However, the District claimed a net total of $44,900 in unallowable
reimbursement for services provided to 18 applicants after their eligibility
periods had expired and to 3 applicants who did not meet eligibility
requirements.
We recommended that the District refund the $44,900 in unallowable
reimbursement and revise its Form CMS-64.9 Waiver reports for Louisiana and
Mississippi by the audit adjustment amounts.  The District agreed.